Nos. 20A15, 20A16
In the Supreme Court of the United States
DONALD J. TRUMP; THE TRUMP ORGANIZATION, INC.; TRUMP ORGANIZATION LLC; THE
TRUMP CORPORATION; DJT HOLDINGS LLC; THE DONALD J. TRUMP REVOCABLE
TRUST; AND TRUMP OLD POST OFFICE LLC
v.
MAZARS USA, LLP; COMMITTEE ON OVERSIGHT AND REFORM OF THE
UNITED STATES HOUSE OF REPRESENTATIVES

DONALD J. TRUMP; DONALD J. TRUMP, JR.; ERIC TRUMP; IVANKA TRUMP; DONALD J.
TRUMP REVOCABLE TRUST; TRUMP ORGANIZATION, INC.; TRUMP ORGANIZATION LLC;
DJT HOLDINGS LLC; DJT MANAGING MEMBER LLC; TRUMP ACQUISITION LLC;
TRUMP ACQUISITION, CORP.
v.
DEUTSCHE BANK AG; CAPITAL ONE FINANCIAL CORPORATION; COMMITTEE ON
FINANCIAL SERVICES OF THE UNITED STATES HOUSE OF REPRESENTATIVES;
PERMANENT SELECT COMMITTEE ON INTELLIGENCE OF THE UNITED STATES HOUSE OF
REPRESENTATIVES

CERTIFICATE OF SERVICE
I, William S. Consovoy, counsel for Petitioners, hereby certify that on this 16th
day of July, 2020, I caused the foregoing Opposition to the Application for Immediate
Issuance of the Judgments to be served on the following by electronic mail:
Douglas N. Letter
Office of General Counsel, U.S.
219 Cannon House Office Building
Washington, DC 20515
(202) 225-9700
douglas.letter@mail.house.gov

James A. Murphy
Murphy & McGonigle, P.C.
1185 Avenue of the Americas,
21st Floor
New York, New York 10036
(212) 880-3968
jmurphy@mmlawus.com
Pratik A. Shah
Akin Gump Strauss Hauer & Feld LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 887-4210
pshah@akingump.com
Jerry D. Bernstein
Blank Rome, LLP
1271 Avenue of the Americas
New York, NY 10020
(212) 885-5511
jbernstein@blankrome.com
All parties have consented to service via electronic mail. And all parties
required to be served have been served.

s/ William S. Consovoy
William S. Consovoy
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
703-243-9423
will@consovoymccarthy.com
Counsel for Petitioners

